C

BECKER GALLAGHER
Briefs

and

Supreme Court of the United States
United States Courts of Appeals

Records

CERTIFICATE OF SERVICE
I, Emily Mullins, hereby certify that 1 unbound
copy and 40 bound copies of the foregoing Brief of The
American Conservative Union Foundation, The Cato
Institute, The Lincoln Network, and Rutherford
Institute as Amici Curiae in Support of Petitioner in
20-5904, Tarahrick Terry v. United States of America,
was sent via Next Day Service to the U.S. Supreme
Court, and Next Day e-mail service to the following
parties listed below, this 19th day of February, 2021:
Andrew Lee Adler
FEDERAL PUBLIC DEFENDER'S OFFICE
One East Broward Blvd.
Suite 1100
Fort Lauderdale , FL 33301
(954) 356-7 436
andrew _adler@fd.org
Counsel for Petitioner
Elizabeth B. Prelogar
Acting Solicitor General
UNITED STATES DEPARTMENT OF JUSTICE
950 Pennsylvania Avenue, NW
Washington, DC 20530-0001
(202) 514-2217
SupremeCtBriefs@USDOJ.gov
Counsel for Respondent

BECKER GALLAGHER LEGAL PUBLISHING INCORPORATED

(800) 890.5001
www.beckergallagher.com

8790 Governor's Hill Drive
' Suite 102
Cincinnati, Ohio 45249

Franklin Square
1300 I Street, NW, Suite 400E
Washington, DC 20005

Joshua C. Toll
Counsel of Record
Marisa C. Maleck
Joshua N. Mitchell
Edward A. Benoit
KING & SPALDING LLP
1700 Pennsylvania Ave. NW
Washington, DC 20006
(202) 737-0500
jtoll@kslaw.com
David H. Safavian
AMERICAN CONSERVATIVE UNION
& ACU FOUNDATION
1199 North Fairfax St.
Suite 500
Alexandria, VA 22314
(202) 34 7-9388
dsafavian@conservative.org
Clark M. Neily III
Jay R. Schweikert
CATO INSTITUTE
1000 Mass. Ave. NW
Washington, DC 20001
(202) 842-0200
cneily@cato.org
John W. Whitehead
Douglas R. McKusick
RUTHERFORD INSTITUTE
109 Deerwood Road
Charlottesville, VA 22911
(434) 978-3888
legal@rutherford.org

Arthur Rizer
LINCOLN NETWORK
1133 15th Street NW
Washington, DC 20005
(703) 855-3536
arthur@joinlincoln.org

Counsel for Amici Curiae

All parties required to be served have been served.
I further declare under penalty of perjury that the
foregoing is true and correct. This Certificate is
executed on February 19, 2021.

Emily Mullins
Becker Gallagher Legal Publishing, Inc.
8790 Governor's Hill Drive, Suite 102
Cincinnati, OH 45249
(800) 890-5001

Subscribed and sworn to before me by the said
Affiant on the date below designated.

Notary Public
[seal]

